No. 20-1438

In the
Supreme Court of the United States

TINA CATES, PETITIONER,

v.
BRUCE D. STROUD BRIAN WILLIAMS, SR.; JAMES DZURENDA; ARTHUR EMLING, JR.;
MYRA LAURIAN, RESPONDENT.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Brief of the American Civil Liberties Union of Nevada, National Lawyers
Guild Las Vegas Chapter, Nevada Attorneys for Criminal Justice, and
University of Nevada Las Vegas Policing and Protest Clinic, Mass
Liberation Nevada, and Forced Trajectory Project as Amici Curiae in
Support of Petitioner

Christopher M. Peterson*
Senior Staff Attorney
ACLU of Nevada
601 S. Rancho Dr. #B-11
Las Vegas, NV 89106
(702) 518-4202
*Counsel of record for amici curiae
Elizabeth L. MacDowell
Policing and Protest Clinic
Thomas & Mack Clinic
William S. Boyd School of Law
P.O. Box 71075
•
Las Vegas, NV 89170-1075
Telephone (702) 895-2080

TABLE OF CONTENTS
Table of Contents

ii

Table of Authorities

iii

Interest of Amici Curiae

1

Summary of Argument

3

Argument

4

I.

II.

Qualified immunity harms Nevadans visiting state prisons as
there are minimal political or legal Means under Nevada state law
to hold NDOC or its staff accountable for constitutional violations

4

Lack of accountability breeds systemic abuse and causes tangible
harm to visitors to NDOC facilities

9

Deterring visitation harms families

10

Lawyers visiting inmates also experience abusive conduct by
prison staff
13
III. The Ninth Circuit's ruling expands qualified immunity to protect
more officers acting in bad faith, exacerbating a doctrinal drift that
is at odds with the original purpose of the doctrine
14
Conclusion

16

ii

TABLE OF' AUTHORITIES
CASES
Allen v. McCurry, 449 U.S. 90 (1980)

9

Florida v. Wells, 495 U.S. 1 (1990)

15

Harlow v. Fitzgerald, 457 U.S. 800 (1982)

14

McNeese u. Board of Ed., 373 U.S. 668 (1963)

9

Monell u. Dep't of Soc. Serus. of City of New York, 436 U.S. 658 (1978)

15

Pierson v. Ray, 386 U.S. 547 (1967)

14
STATUTES

42 U.S.C. § 1983

3, 7, 14

Nev. Rev. Stat. § 233B.039(1)(b)

5

Nev. Rev. Stat. § 233B.061(2)

5

Nev. Rev. Stat. § 233B.061(3)

5

Nev. Rev. Stat. § 233B.063(1)

5

Nev. Rev. Stat. § 289.057(2)

8

Nev. Rev. Stat. § 289.057(3)

8

Nev. Rev. Stat. § 289.060(1)

8

Nev. Rev. Stat. § 289.080(2)—(7)

8

Nev. Rev. Stat. § 289.085

9

Nev. Rev. Stat. § 289.220

8

Nev. Rev. Stat. § 41.0322

7

Nev. Rev. Stat. §§ 289.020-289.120

8, 9

Nev. Rev. Stat. §§ 41.0305-41.039

7

iii

OTHER AUTHORITIES
Annie E. Casey Foundation, Children of Incarcerated Parents, a Shared Sentence:

The Devastating Toll of Parental Incarceration on Kids, Families and
Communities (April 18, 2016)

11

Brittnie L. Aiello & Jill A. McCorkel, "It will crush you like a bug": Maternal
incarceration, secondary prisonization, and children's visitation, 20 Punishment
& Soc'y 351 (2018)
10
Bryan Stevenson, Just Mercy: A Story of Justice and Redemption (2014)

13

Chesa Boudin, Trever Stutz & Aaron Littman, Prison Visitation Policies: A FiftyState Survey, 32 Yale L. & Pay Rev. 151 (2013)
10
Dana Gentry, Nevada prisons raid inmate accounts in delayed response to Marsy's
Law, The Nevada Current (Sept. 4, 2020)
6
Deborah Becker & Rachel Paiste, Female Lawyers Allege Improper Searches on
Prison Visits, WBUR (Feb. 17, 2015)

14

Donald Bramen, Doing Time on the Outside: Incarceration and Family Life in
Urban America (2007)

10

Eric Martin, Hidden Consequences: The Impact of Incarceration on Dependent
Children, National Institute of Justice (2017)
12, 13
J. Neil Gorsuch, A Republic, If You Can Keep It (2019)

6

Leila Morsy & Richard Rothstein, Mass Incarceration and Children's Outcomes,
Economic Policy Institute (2016)

12

Megan L. Comfort, In the tube at San Quentin: The "secondary prisonization" of
women visiting inmates, 32 J. Contemporary Ethnography 77 (2003)

10

Michelle Rindels, Nevada officials suspend policy of diverting 80 percent of funds
sent to inmates to pay victim restitution, The Nevada Independent (Oct. 8, 2020)
6
Minnesota Department of Corrections, The Effects of Prison Visitation on Offender
Recidivism (2011)
13
Ross D Park & Alison Clarke-Stewart, Effects of Parental Incarceration on Young
Children (2001)
11, 12, 13

iv

Scott Dolan, Portland Jail Tells Female Attorneys to Remove Detector-Triggering
Bras Before Seeing Clients, Portland Press Herald (Sept. 18, 2015)
13
Susan D. Phillips, Video Visits for Children Whose Parents are Incarcerated, The
Sentencing Project (2012)
11
T. Hunter Jefferson, Constitutional Wrongs and Common Law Principles: The Case
for Recognition of State Constitutional Tort Actions Against State Governments,
50 Vand. L. Rev. 1525 (1997)
7
Vera Institute of Justice, Incarceration Trends in Nevada (2019)

11

REGULATIONS
Nev. Dep't of Corr. Admin. Reg. 422, "Responsibilities"

15

Nev. Dep't of Corr. Admin. Reg. 422.05

14

CONSTITUTIONAL PROVISIONS
Nev. Const. arts. 3-6

4

U.S. Const. arts. I—III

4

INTEREST OF AMICI CURIAE
Amici curiae are organizations from the State of Nevada who protect civil
liberties, advocate on behalf of inmates incarcerated in the Nevada Department of
Corrections (NDOC) and their families, and have regular contact with NDOC
facilities. Amici share a common interest in ensuring that the NDOC and its staff are
held accountable for constitutional violations. Amici have a shared expertise in
Nevada law and practices including their inadequacies in punishing such violations.'
The American Civil Liberties Union of Nevada (ACLU of Nevada) is a
nonprofit, nonpartisan organization dedicated to defending the principles embodied
in the United States Constitution, the Nevada Constitution, and other civil rights
laws. The ACLU of Nevada advocates on behalf of Nevadans, including those
incarcerated in NDOC, meaning that ACLU of Nevada staff must regularly visit
NDOC facilities to conduct investigations and consult with clients.
The Nevada Attorneys for Criminal Justice, Inc. (NACJ) is a Nevada nonprofit
organization comprised of approximately 200 criminal defense attorneys who practice
in both the public and private sectors. NACJ is a member affiliate of the National
Association of Criminal Defense Attorneys. As NACJ members represent defendants
in criminal cases at all stages of litigation, they must regularly visit NDOC facilities

1 Pursuant to this Court's Rule 37, amici state that this brief was not authored
in whole or in part by counsel for any party and that no person or entity made a
monetary contribution intended to fund the preparation or submission of this brief.
Timely notice of the filing of this brief was given to both parties, and both parties
have consented in writing to its filing. This Court's April 15, 2020, standing order
authorizes formatting under Supreme Court Rule 33.2 for "every document filed in a
case prior to a ruling on a petition for a writ of certiorari."
1

to consult with clients.
The National Lawyers- Guild Las Vegas Chapter (NLG-LV) is a progressive
public interest association of lawyers, law students, paralegals, and other legal
workers dedicated to promoting human rights and advancing social justice in the
state of Nevada. Many members represent clients in NDOC and must regularly visit
Nevada prison facilities.
The Policing and Protest Clinic of the William S. Boyd School of Law at the
University of Nevada, Las Vegas (PPC), is a clinical law program dedicated to the
legal empowerment of Nevadans most impacted by police violence and the
suppression of civil liberties, including those incarcerated in NDOC and their families
and other loved ones. Clinic members work on civil rights matters under Nevada and
United States law through legal representation, legislative advocacy, and community
legal education. PPC plans to work with NDOC inmates in coming semesters and will
regularly visit prisons in Nevada.
Mass Liberation Nevada is a de-incarceration grassroots activism project
focused on ending #Massincarceration in Nevada and beyond. Its members include
those who are currently or formerly incarcerated in Nevada as well as individuals
who visit family members and others in jails and prisons in Nevada.
Forced Trajectory Project is a media, public relations, and advocacy
organization that documents the effects of police violence in Las Vegas with a focus
on families who have lost their loved ones to police murder. One of FTP's primary
objectives is to support the victim's family members by amplifying their collective
2

voice, provide them with a community platform, and aid their networking efforts
where they can benefit from sharing resources. To this end, FTP works closely with
clients impacted by police violence including many whose loved ones are or have been
incarcerated in Nevada and who visit loved ones in Nevada carceral facilities.
Together, amici write to explain why granting certiorari is necessary to limit
the doctrine of qualified immunity, particularly in the context of Nevada state
prisons.

SUMMARY OF ARGUMENT
This Court should grant certiorari and overrule the Ninth Circuit's decision
granting qualified immunity to the correctional officers who violated Tina Cates's
Fourth Amendment rights. Nevada offers limited means under state law to hold State
agencies and employees accountable for constitutional violations. A civil action under
42 U.S.C. § 1983 is often the only way for a person whose constitutional rights have
been violated by a Nevadan State actor to seek recourse. Yet qualified immunity
frequently closes off this avenue for redress. The Ninth Circuit's decision worsens this
situation by enlarging qualified immunity to protect more officers who had
reasonable notice that their conduct is wrong when they commit a constitutional
violation, as was the case here. In the context of NDOC and other prison facilities,
this lack of accountability results in substantial and tangible social costs.
This brief aims to provide a state-level perspective regarding the impact of
qualified immunity. It discusses the importance of civil actions under 42 U.S.C. §
3

1983 when state law is inadequate to hold agencies like NDOC accountable for
constitutional violations, the tangible impact that constitutional violations have in
the context of a prison system like NDOC when they victimize visitors, and the
fundamental injustice that results if the doctrine of qualified immunity is expanded
to protect officers who act in bad faith and against their agency's directives, like those
that strip searched Tina Cates.

ARGUMENT
I. Qualified immunity harms Nevadans visiting state prisons as there
are minimal political or legal means under Nevada state law to hold
NDOC or its staff accountable for constitutional violations
While the Nevada Constitution adopts the convention of a tripartite
government, separating its branches into the Legislative Department, Executive
Department, and Judicial Department, compare Nev. Const. arts. 3-6 with U.S.
Const. arts.

NDOC is uniquely unaccountable to the other branches of Nevada's

government, exacerbating the need for a federal remedy when it violates
constitutional rights. This lack of accountability is apparent in three ways. First,
NDOC is largely free from oversight by the State Legislative Department because it
is exempt from the Nevada Administrative Procedure Act. Second, NDOC is largely
free from judicial oversight by the State Judicial Department because there is no
state cause of action for violations under the Nevada Constitution. Finally, many
NDOC employees, including corrections officers and investigators, are insulated from
internal discipline by the agency due to a set of "Rights of Peace Officers," codified in
4

Nevada statute, that affords more protections to corrections officers under
investigation for professional misconduct than to defendants subject to criminal
prosecution.
NDOC acts unilaterally in creating and adopting agency regulations as it is
exempt from the system of checks and balances that most administrative agencies
must follow under Nevada's Administrative Procedure Act. Nev. Rev. Stat. §
233B.039(1)(b). Other agencies in Nevada begin this rigorous process by submitting
proposed regulations to the Legislative Counsel for review at least 30 days before
they are published. Nev. Rev. Stat. § 233B.063(1). During that period, they must also
hold a workshop for interested persons to raise issues with the proposed regulation.
Nev. Rev. Stat. § 233B.061(2). Agencies then must give the public a chance to
comment on the proposal both in writing and at an oral hearing. Nev. Rev. Stat. §
233B.061(3). All comments must be recorded and fully considered before the final
ruling can be promulgated. Id. NDOC, on the other hand, need not answer to the
public nor the Legislative Counsel to pass rules that affect the lives of people
incarcerated in Nevada. Nev. Rev. Stat. § 233B.039(1)(b).
For example, NDOC independently—without any guidance from Nevada's
legislature—changed a policy that had an extensive impact on the families of
Nevada's incarcerated population. In September of 2020, it began withholding 80%
of the funds given to incarcerated individuals from their families, funds frequently
needed by the incarcerated people to buy basic hygiene products and food when the
"free" products distributed by detention facilities are inadequate. Dana Gentry,
5

Nevada prisons raid inmate accounts in delayed response to Marsy's Law, The
Nevada Current, (Sept. 4, 2020), https://www.nevadacurrent.com/2020/09/04/nevada prisons-raid-inmate-accounts-in-delaved-response-to-marsys-law/ . This new rate was
an increase from the prior policy, which withheld 40% of family gifts. Id. The change
in policy was implemented without notice to families, friends, or incarcerated people
themselves. Id. Indeed, this was without notice to anyone outside of NDOC, as was
reflected by the considerable confusion generated at a subsequent meeting of the
Governor, Attorney General, and Secretary of State, all of whom questioned the
rationale for the sudden and significant increase. Michelle Rindels, Nevada officials
suspend policy of diverting 80 percent of funds sent to inmates to pay victim
restitution,

The

Nevada

Independent

(Oct.

8,

2020),

haps ://thenevadaindependent.com/article/families -protest-new -nevadamolicv-totake-80-Dercent-of funds-sent-to-inmates-to-Day-victim-restitution.

When

questioned, the NDOC made clear its belief that it had all the authority it needed to
change this policy without oversight, broad effect notwithstanding.
Such actions reflect a wider trend of agency sprawl. Delegation of legislative
authority to executive agencies has resulted in "a lot more law" that circumvents "the
difficulties of the legislative process." J. Neil Gorsuch, A Republic, If You Can Keep It
59, 62 — 63 (2019). These difficulties, though, are "essential," "purposefully placed
there to ensure that the laws would be more likely the product of deliberation than
haste . . . ." Id. at 63. And circumventing this process undermines the political
accountability presumed by separation of powers principles. See id. at 64. As
6

demonstrated by the inmate account withholding, NDOC's action was not subject to
the vagaries of communication, comment, or compromise.
This dearth of legislative oversight, though, is exacerbated by the lack of state
judicial oversight. Though Nevada's Constitution has the force of law, Nevada lacks
a state civil action for deprivation of constitutional rights similar to 42 U.S.C. § 1983.
See Nev. Rev. Stat. §§ 41.0305-41.039 (not including cause of action for civil damages
for a violation of state constitution); see generally T. Hunter Jefferson, Constitutional
Wrongs and Common Law Principles: The Case for Recognition of State
Constitutional Tort Actions Against State Governments, 50 Vand. L. Rev. 1525 (1997).
Without such an action, a plaintiff is left with a suit in torts as the nearest analogue.
See Nev. Rev. Stat. § 41.0322 (actions by persons in custody of NDOC). But, as
implicitly acknowledged by the cause of action available under 42 U.S.C. § 1983,
traditional civil tort liability is insufficient to protect constitutional rights. Concepts
like battery and negligence simply cannot address harms to the right to free speech,
religion, or to be secure in one's person. Indeed, constitutional law—as acknowledged
by the Court of Appeals below—recognizes the unique invasiveness of cavity searches.
See, e.g., Pet. App. at 13a-14a. This recognition reflects that this violation is more
than the sum of its common law torts. Pet. App. at 13a (describing strip searches as
"dehumanizing and humiliating," "the most grievous offenses against personal
dignity and common decency," noting "intrusiveness . . cannot be overstated").
Finally, NDOC employees such as corrections officers and investigators benefit
from special procedural protections during investigations by the agency into alleged
7

misconduct, making it difficult for NDOC to have internal accountability. Corrections
officers and investigators are considered "peace officers" under Nevada law, Nev. Rev.
Stat. § 289.220, and are entitled to the rights enumerated under the "Rights of Peace
Officers" during investigations by NDOC. Nev. Rev. Stat. §§ 289.020-289.120. These
rights are in many ways more extensive than those afforded parties involved in a
criminal investigation. An officer under investigation is entitled to written notice that
he or she is under investigation 48 hours before any interrogation or hearing related
to the investigation occurs. Nev. Rev. Stat. § 289.060(1). If there is no concurrent
criminal prosecution related to the allegation or alternative provision in a collective
bargaining agreement, the officer cannot be suspended without pay during the
investigation regardless the seriousness of the allegation. Nev. Rev. Stat. §
289.057(2). Even if the officer is solely a witness to misconduct rather than the subject
of the investigation, the officer is still entitled to have two representatives present
during any interview, confidentiality in relation to those representatives, and have
those representatives "explain" any answer given by the officer during the interview.
Nev. Rev. Stat. § 289.080(2)—(7). Even if an allegation of misconduct is sustained
against an officer, the agency must remove any record of the investigation and
imposition of punitive measures from the officer's administrative file if it is agency
policy or part of a collective bargaining agreement, and furthermore, the officer is
entitled to review any notes, recordings, transcripts of interviews, or any other
documents generated as part of the investigation. Nev. Rev. Stat. § 289.057(3).
Finally, no evidence collected by the agency in violation of the rights enumerated in
8

Nev. Rev. Stat. §§ 289.020-289.120 may be used in either a criminal or civil action
against the officer investigated, even if it is a third party bringing the action. Nev.
Rev. Stat. § 289.085. In turn, considering the rights enumerated in Nev. Rev. Stat. §§
289.020-289.120 in their totality, NDOC would be hard-pressed to hold its officers
accountable with long term consequences even if it had the will to do so.
The absence of Nevada state law checks on NDOC and its employees highlights
the importance of federal remedies. The State of Nevada may choose to allow its
agency to operate without impediment, but federal courts must nonetheless ensure
constitutional constraints are respected. See, e.g., Allen v. McCurry, 449 U.S. 90, 989 (1980) ("one strong motive behind [the enactment of 42 U.S.C. § 1983] was grave
congressional concern that the state courts had been deficient in protecting federal
rights"); McNeese u. Board of Ed., 373 U.S. 668, 671-72 (1963) ("The purposes [of 42
U.S.C. § 1983] were several-fold—to override certain kinds of state laws, to provide a
remedy where state law was inadequate, 'to provide a federal remedy where the state
remedy, though adequate in theory, was not available in practice' . . . ."). Thus, for
Nevada, the Ninth Circuit's broad application of qualified immunity poses a special
problem: if the federal courts will not provide redress for violations of Nevadans'
constitutional rights, who will?
II. Lack of accountability breeds systemic abuse and causes tangible
harm to visitors to NDOC facilities
It is well understood by those who visit inmates for personal or professional
reasons that association with inmates comes at a price when entering the prison.

9

While most people expect to be searched and understand the need for such security,
researchers document the "needless indignities suffered during [prison] visitation,
the most common of which is refusal of entry on any number of grounds, but which
often extend to cavity searches and the off-hand insult." Donald Bramen, Doing Time
on the Outside: Incarceration and Family Life in Urban America 120 (2007); see also
Megan L. Comfort, In the tube at San Quentin: The "secondary prisonization" of
women visiting inmates, 32 J. Contemporary Ethnography 77 (2003). In turn,
deterring or preventing visitation causes harm to visitors and defeats the
rehabilitative aims of criminal sentencing.
A.

Deterring visitation harms families

Actions by prison staff members that functionally deny or deter visitation
negatively impacts the families and loved ones of incarcerated persons. In this way,
the families of the incarcerated are also mistreated by the penal system, becoming
secondary victims. Brittnie L. Aiello & Jill A. McCorkel, "!It will crush you like a bug"
Maternal incarceration, secondary prisonization, and children's visitation, 20
Punishment & Soc'y 351 (2018). Although visitation alone does not solve the familial
and societal problems caused by the incarceration of parents, visitation has a positive
effect on the incarcerated and their families. Chesa Boudin, Trever Stutz & Aaron
Littman, Prison Visitation Policies: A Fifty-State Survey, 32 Yale L. & Pol'y Rev. 151,
151-152 (2013) Children in particular experience significant and varied negative
consequences as the result of parental incarceration. Aiello & McCorkel, supra at 351371.
10

As of 2012, an estimated 2 6 million children — or approximately 1 in every 33
— have a parent in jail or prison. Susan D. Phillips, Video Visits for Children Whose
Parents are Incarcerated, The Sentencing Project, 1 (2012). In Nevada, between 2011
and 2012, approximately 55,000 children — 8 percent of all Nevada children — were
growing up with an incarcerated parent. Annie E. Casey Foundation, Children of
Incarcerated Parents, a Shared Sentence: The Devastating Toll of Parental
Incarceration on Kids, Families and Communities (April 18, 2016), available at
https://www.aectorelpublicationst Given that Nevada's prison population has grown
significantly since 2012, there is good reason to believe that there are more children
in Nevada with incarcerated parents today. Vera Institute of Justice, Incarceration
Trends

in

Nevada

(2019),

available

at

https://www.vera.ore/downloads/pdfdownloads/state-incarceration-trendsnevada.pdf (indicating that in 2018 there were 13,695 people in Nevada state prisons,
a 40 percent increase since 2000).
Though innocent, children are harmed by the negative consequences of
parental incarceration. Infants of incarcerated parents do not have the opportunity
to form attachments with their parents and as a result miss out on a critical
developmental task, often leading to emotional and behavioral problems. Ross D Park
& Alison Clarke-Stewart, Effects of Parental Incarceration on Young Children 5
(2001). Young children of incarcerated parents have their existing attachment with
parents disrupted, and this disruption is linked to varied psychological problems
including anxiety, depression, anger, and aggression. Leila Morsy & Richard
11

Rothstein, Mass Incarceration and Children's Outcomes, Economic Policy Institute,
1-2 (2016). For example, children of incarcerated fathers have worse physical health
and are more likely to suffer from health issues such as migraines, asthma, and high
cholesterol, than children whose fathers are not incarcerated. Id. Children of
incarcerated parents also experience higher rates of economic instability and are
more likely to fall into poverty. Id. at 8-11.
School-aged children of the incarcerated face increased problems at school,
including poor grades and instances of aggression. Park & Clark-Stewart, supra at 6.
Furthermore, children of the incarcerated are more likely to drop out of school than
other children. Eric Martin, Hidden Consequences: The Impact of Incarceration on
Dependent Children, National Institute of Justice, 1 (2017). Negative consequences
continue to follow later in life, as children of parents who were incarcerated face
higher rates of incarceration themselves. Id. at 2 Children of the incarcerated are
therefore placed on a path of generational harm; they are more likely to later be
incarcerated themselves, creating a cycle of harm against the family unit. Children
of incarcerated parents also lose faith in public institutions, and as adults are less
likely to vote, trust the government, or participate in community service. Morsy &
Rothstein, supra at 12.
However, visitation has a positive impact on the family of the incarcerated and
can mitigate the harm a parent's incarceration can have on children. Indeed, the
opportunity to maintain contact with the incarcerated parent is considered a
determinant of a child's ability to adjust. Park & Clarke-Stewart, supra at 8. Children
12

of incarcerated parents who have had a prior positive relationship with incarcerated
parents tend to benefit psychologically from visits. Id. And the benefits of visitation
reach the incarcerated parent as well. Research links strong family support with
successful reentry into society. Martin, supra at 1 —3. Understandably, then, visits
from family and loved ones reduces rates of recidivism among the incarcerated. Id. at
4; Minnesota Department of Corrections, The Effects of Prison Visitation on Offender
Recidivism 18-27 (2011). Misconduct by prison staff directed towards visitors must
be curbed so that visitation can play its role in mitigating the social harms of
incarceration on both the incarcerated and their families
B.

Lawyers visiting inmates also experience abusive conduct
by prison staff

While researchers have not focused on visitors providing professional services
to inmates, lawyers and other service providers attempting to visit inmates also
experience abusive conduct by prison staff. For example, attorney Bryan Stevenson
recounts that he was strip searched by a prison guard when he visited a client on
death row because the guard did not believe he was an attorney. Bryan Stevenson,
Just Mercy: A Story of Justice and Redemption 194-95 (2014). Women lawyers have
also described invasive searches and the prohibition of underwire bras. See, e.g., Scott
Dolan, Portland Jail Tells Female Attorneys to Remove Detector-Triggering Bras
Before Seeing Clients,

Portland Press Herald (Sept. 18, 2015)

https://www .pressherald.com/2015/09/18/female -attorneys-forced-to-removeunderwire-bras-before-meeting-with-clients-at-portland-jail/: Deborah Becker &
13

Rachel Paiste, Female Lawyers Allege Improper Searches on Prison Visits, WBUR
(Feb. 17, 2015), https://www.wbur.org/news/2015/02/27/woman-lawyers-prison-visits
(describing a proposed search at MCI Norfolk facility). When officer misconduct
impacts legal counsel and discourages attorneys from visiting their incarcerated
clients, it interferes with the incarcerated clients' Fifth Amendment right to counsel
and certainly violates the Fourth Amendment rights of the attorney as they perform
their professional duties.
III. The Ninth Circuit's ruling expands qualified immunity to protect
more officers acting in bad faith, exacerbating a doctrinal drift that is
at odds with the original purpose of the doctrine
Whether its roots lie in common law or judicial fiat, qualified immunity was
originally intended to apply only to officers acting in "good faith," as, "common law
has never granted police officers an absolute and unqualified immunity." Pierson v.
Ray, 386 U.S. 547, 555 (1967). However, Harlow v. Fitzgerald transformed the
doctrine so that officers would be liable solely for violations of "clearly established"
constitutional rights; the stated purpose of this change was not justice but to avoid
the costs of litigation related to discovery and trial, a reason untethered from both
the text of 42 U.S.C. § 1983 and the common law. 457 U.S. 800, 813-14 (1982).
The grant of qualified immunity in this case illustrates the injustice of that
drift. When the officers stripped Tina Cates and conducted a cavity search without
giving her the opportunity to leave, they violated NDOC's own policies specifically
forbidding such conduct. Nev. Dep't of Corr. Admin. Reg. 422.05, available at
httns://doc.nv.gov/uoloadedFiles/docnygov/content/About/Administrative Regulation
14

s/AR%20422%20Search%20and%20Seizure%20Standards%20Final%2011-1516.pdf. This is a policy that all NDOC employees are required to be familiar with.
Nev. Dep't of Corr. Admin. Reg. 422, "Responsibilities". The officers in this case knew
what they were doing was wrong, and yet they decided to act anyway.
Defining "clearly established" based solely upon rulings made by the circuit
court where the incident occurred rather than the officer's actual knowledge and
culpability divorces the law from reality. Looking specifically at this case, the NDOC
policy does not specifically require its officers to be familiar with state or federal
jurisprudence surrounding searches. This means that the law, as it stands, relies on
information that an officer is unlikely to know to shield behavior that is indisputably
wrong.
If qualified immunity returns to the principles of Pierson, the doctrine should
not apply to officers who violate their agency's policies. This Court previously
recognized the value of agency policies in the context of § 1983 lawsuits. See Monell
v. Dep't of Soc. Serus. of City of New York, 436 U.S. 658, 694 (1978) ("Mt is when
execution of a government's policy or custom, whether made by its lawmakers or by
those whose edicts or acts may fairly be said to represent official policy, inflicts the
injury that the government as an entity is responsible under § 1983."). It has also
used policies promulgated by law enforcement to determine what conduct violates the
Fourth Amendment. See Florida u. Wells, 495 U.S. 1 (1990) (ruling that inventory
searches must follow policies issued by the law enforcement agency to be
constitutional under the Fourth Amendment). Holding officers accountable for
1V

policies that they not only should know, but are required to know, is reasonable
application of these principles.

CONCLUSION

The Court should grant certiorari and either eliminate qualified immunity or
return to the original standard described in Pierson, applying the doctrine only in
instances where officers act in "good faith."

Dated May 11, 2021
Respectfully submitted,

Christopher M. Peterson*
Senior Staff Attorney
ACLU of Nevada
* Counsel of record for amicus curiae
Elizabeth L. MacDowell
Policing and Protest Clinic
Thomas & Mack Clinic
William S. Boyd School of Law

16

